NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
            120 WHITE BRIDGE ROAD
          NASHVILLE, TENNESSEE 37209

 NATIONAL SCIENCE FOUNDATION AWARD NUMBERS
      DUE-9850307, DUE-0202249, DUE-0202397

             FINANCIAL AUDIT OF
          FINANCIAL SCHEDULES AND
INDEPENDENT AUDITORS’ REPORTS FOR THE PERIOD
          October 1, 1998 – March 31, 2004




                                 Foxx & Company
                                 700 Goodall Complex
                                 324 West Ninth Street
                                 Cincinnati, Ohio 45202-1908
                 NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE

                                                 TABLE OF CONTENTS

                                                                                                                                    PAGE
Executive Summary

        Background ..................................................................................................................... 1

        Audit Objectives, Scope, and Methodology ................................................................... 2

        Summary of Audit Results.............................................................................................. 3

        Exit Conference .............................................................................................................. 5


Audit Findings and Recommendations

        Independent Auditors’ Report on Financial Schedules .................................................. 7

        Independent Auditors’ Report on Compliance with Laws and Regulations
          and Internal Control Over Financial Reporting ........................................................... 9

Financial Schedules and Supplemental Information

        Schedule A-1 Schedule of Award Costs - (DUE-9850307) ......................................... 19

        Schedule B-1 Schedule of Questioned Costs - (DUE-9850307) ................................. 20

        Schedule A-2 Schedule of Award Costs - (DUE-0202249) ......................................... 22

        Schedule B-2 Schedule of Questioned Costs - (DUE-0202249) ................................. 23

        Schedule A-3 Schedule of Award Costs – (DUE-0202397) ........................................ 25

        Schedule B-3 Schedule of Question Cost – (DUE-0202397)....................................... 26

        Schedule C-1 Summary Schedules of Awards Audited and Audit Results ................. 27

        Notes to the Financial Schedules ................................................................................. 29

Appendix A – Awardee’s Comments to Report .................................................................. 31
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to Nashville State
Technical Community College (NSTCC) under Grant No. DUE-9850307 for the period October
1, 1998 to September 30, 2002, and Grant Nos. DUE-0202249 and DUE-0202397 for the period
September 15, 2002 to August 31, 2005. NSTCC, as an NSF awardee, is governed by the cost
principles specified by Office of Management and Budget (OMB) Circular A-21, Cost Principles
for Educational Institutions. Additionally, NSTCC is required to follow the provisions for
administrative requirements contained in OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations.

NSTCC is a two-year college established under the Tennessee Board of Regents. The
governance of Nashville State Technical Community College is outlined by the Tennessee Board
of Regents, which is guided by the leadership of the Governor, the Commissioner of Education,
the Commissioner of Agriculture, and the Director of the Tennessee Higher Education
Commission. The Chief administrative officer is the President, who reports directly to the Board
of Regents. The President is assisted and advised by the members of the faculty and
administrative staff as to the progress and current activities of the school.

NSTCC offers two-year, college level programs, and certificates to prepare adults for
employment as technicians in career areas. The programs lead to an associate of Applied Science
degree. Also, NSTCC offers special programs and courses to meet the needs of industry,
business, and government.

Descriptions of the NSF awards we audited are as follows:

Award Number DUE-9850307 – NSF awarded Grant No. DUE-9850307 to NSTCC on October
1, 1998, for $1,629,004 and included a $252,000 cost-share requirement. NSTCC claimed
$1,607,080 in NSF funding and $304,324 in cost sharing as of September 30, 2002. The award
expired on September 30, 2002. The project titled “South East Advanced Technology
Educational Center (SEATEC)” was part of a broad systemic initiative to develop and implement
case studies. The SEATEC project consisted of five two-year colleges in Tennessee with their
associated school districts, two four-year universities, and communication industries. The goals
of the SEATEC project were to (1) provide national leadership in developing and implementing
case studies for technological education, professional development for participating faculty; (2)
evaluate the effectiveness of case study method in teaching technology related content; and (3)
disseminate nationally information about the case studies and the outcomes of their use.

Award Number DUE-0202249 – NSF awarded Grant No. DUE-0202249 to NSTCC on
September 15, 2002, in the amount of $1,209,126 and included a $271,700 cost-share
requirement. The award was amended on May 20, 2004 and July 31, 2004, with an additional


                                               1
$689,677 awarded for a total of $1,898,803 in NSF funding. The expiration date of the award
was extended to August 31, 2005. NSTCC claimed $667,643 of NSF funding and a cost share of
$241,528 through March 31, 2004. The goals of the program, titled “CITE: Tennessee
Information Technology Exchange or Center for Information Technology Education,” were to
provide an effective workplace capacity building system by increasing the information
technology educational strength in a consortium of two-year colleges, four-year colleges, and
secondary schools and industries in North Central Tennessee, and to develop a sustainable
Center to meet requirements by industry for a qualified workforce.

Award Number DUE-0202397 – NSF awarded Grant No. DUE-0202397 to NSTCC on
September 15, 2002, in the amount of $635,954 and included an $80,000 cost share requirement.
This award was amended on July 6, 2004, with an additional $314,034 awarded for a total of
$949,988 in NSF funding. The performance period was extended to August 31, 2005. NSTCC
claimed $390,988 of NSF funding and a cost share of $78,675 through March 31, 2004. The
project titled “Case Files” was a follow-up of the SEATEC project. This project was to be a
catalyst for reform for the learning experience for students in engineering and information
technology program throughout the nation. The learning experience would occur through the
creation of a national community of educators who were skilled and experienced in the delivery
of case-based learning. The secondary objective of the project was to develop a systematic
process that would capture “ideas,” develop a forum for sharing case concepts with other faculty,
and to publish and distribute these materials.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to:

   1. Determine whether NSTCC’s Schedules of Award Costs (Schedules A-1 through A-3)
      present fairly, in all material respects, the costs claimed on the Federal Cash Transactions
      Reports (FCTRs), and the costs claimed including cost sharing are in conformity with the
      Federal and NSF award requirements.

   2. Identify matters concerning instances of noncompliance with laws, regulations, and the
      provisions of the award agreements pertaining to the NSF awards and weaknesses in
      NSTCC’s internal control over financial reporting that could have a direct and material
      effect on the Schedules of Award Costs (Schedules A-1 through A-3) and NSTCC’s
      ability to properly administer, account for, and monitor its NSF awards.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards (2003 Revision), issued by the Comptroller
General of the United States; and the National Science Foundation Audit Guide (September
1996), as applicable. These standards and the National Science Foundation Audit Guide require
that we plan and perform the audit to obtain reasonable assurance about whether the amounts
claimed to NSF as presented in the Schedules of Award Costs (Schedules A-1 through A-3) are
free of material misstatements. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures on the Schedule of Award Costs. An audit also includes
assessing the accounting principles used and the significant estimates made by NSTCC, as well



                                               2
as evaluating the overall financial schedule presentation. We believe our audit provides a
reasonable basis for our opinion.

SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF, as well
as cost sharing provided by NSTCC and consortium partners on the NSF awards. These costs
and the results of our audit are shown in the Schedules of Award Costs (Schedules A-1 through
A-3) and are summarized as follows:

                                                                                   At-risk
                          Funding                        Claimed      Questioned    Cost
       Award No.           Source          Budget         Costs         Costs      Sharing

       DUE-9850307       NSF-Funded      $ 1,629,004    $ 1,607,080   $ 169,557
                         Cost Sharing        252,000        304,324           -              -
                         Total Project     1,881,004      1,911,404     169,557

       DUE-0202249       NSF-Funded        1,898,803       667,643        15,114          -
                         Cost Share          271,700       241,528             -    115,638
                         Total Project     2,170,503       909,171        15,114    115,638
                                                                                          -
       DUE-0202397       NSF-Funded          949,988       390,988           542
                         Cost Share           80,000        78,675             -             -
                         Total Project     1,029,988       469,663           542

       Total Awards      NSF-Funded      $ 4,477,795    $ 2,665,711     $185,213          -
                         Cost Share       $ 603,700      $ 624,527             -   $115,638
                         Totals          $ 5,081,495    $3,290,238      $185,213   $115,638



Except for the $185,213 in questioned salaries and wages, and non-personnel charges (i.e.,
Travel, Consultant, Other Direct, Participant Support Costs and indirect costs), and $115,638 in
“at risk” cost sharing described below, we determined that the costs claimed by NSTCC appear
fairly stated and are allowable, allocable, and reasonable for all three NSF awards. Specifically,
$292 of salaries and wages were questioned because the employee was not authorized to work on
the NSF award. We also questioned $36,901 of non-personnel charges (including participant
support, consultant, travel, and other direct costs) for lack of adequate support and $148,020 of
overcharged indirect costs. In addition, $115,638 (43 %) of the $271,700 budgeted cost sharing
for Award No. DUE-0202249 was determined to be “at risk” because NSTCC could not provide
adequate supporting documentation for all the cost sharing it had claimed to date. “At risk” cost
sharing is the amount of required cost sharing that has not been met at the time of the audit, but
which the awardee still has time to meet before the end of the award period.

NSTCC had a number of material internal control deficiencies that contributed to the questioned
costs for salary and non-personnel charges and the “at-risk” cost sharing amount. Specifically:




                                                    3
   •   NSTCC did not obtain certifications and personnel activity reports as required by Federal
       regulations and NSF grant terms to support xxxxxxxxxxxxx of salaries and wages and
       xxxxxxxxx xxxx of fringe benefits claimed for NSF Award Nos. DUE-0202249 and
       DUE-0202397. This situation occurred even though NSTCC had time and effort
       reporting policies and procedures and had implemented a specific time and effort
       reporting template for its employees to use to record labor worked on NSF awards. Thus,
       it was necessary for us to perform alternative audit procedures to satisfy ourselves of the
       reasonableness and propriety of the labor costs NSTCC charged to its NSF awards.
       Nevertheless, the lack of a labor effort reporting and certification process seriously
       undermined the accuracy and reliability of the labor costs NSTCC claimed on its NSF
       awards.

   •   NSTCC overcharged NSF Award No. DUE-9850307 in the amount of $148,020 for
       indirect costs. This occurred because NSTCC charged the budgeted amount of indirect
       costs instead of applying the NSF approved indirect cost rate of xx percent to actual
       salaries and wages (excluding fringe benefits) incurred for the grant.

   •   NSTCC did not always maintain adequate documentation for the non-personnel costs it
       charged to its NSF awards. Thus, documentation such as purchase orders, invoices,
       contracts, and sign-in sheets were not available to support charges NSTCC claimed for its
       NSF grants. As a result, NSTCC could not provide adequate support for $36,901 of
       participant support, consultant costs, travel costs and other direct costs charged to its NSF
       awards. This situation occurred because NSTCC did not always follow its existing
       procedures related to the retention of records for the costs it charged to its NSF awards.

   •   NSTCC lacked adequate supporting documentation for $85,446 of the $241,528 of cost
       sharing it claimed for Award No. DUE-0202249. As indicated above, NSTCC did not
       maintain employee certifications or personnel activity reports to support the salary and
       fringe benefit costs. Also, NSTCC did not always follow existing procedures related to
       the retention of records for non-personnel costs. This condition also existed for costs
       NSTCC claimed as cost sharing. As a result, NSTCC could not provide adequate support
       for $85,446 (35%) of the $241,528 it claimed as cost sharing for Award No. DUE-
       0202249. We did not question the $85,446 because the award period had not ended at the
       time of our audit. However, we have determined that the lack of adequate documentation
       for cost share results in $115,638 of “at risk” cost sharing. “At risk” cost sharing is the
       amount of required cost sharing that has not been met at the time of the audit, but which
       the awardee still has time to meet before the end of the award period. The $115,638 of
       “at risk” cost sharing is comprised of the $85,446 of unsupported cost sharing that
       NSTCC claimed plus $30,172 of cost sharing NSTCC is still required to provide by the
       end of the award period for Award No. DUE-0202249.

Accordingly, we recommend that the NSF Directors for the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) direct NSTCC for current
and future awards to:




                                                4
1. Develop and implement procedures to verify that all employees working on NSF awards are
   following NSTCC policies and procedures for completion of certifications and personnel
   activity reports;
2. Develop and implement written policies and procedures to ensure that indirect costs claimed
   are in accordance with the terms of the NSF award agreements;
3. Train staff in the implementation of NSTCC procedures to ensure that all documentation to
   support costs charged to future NSF awards is properly maintained and reviewed and
   approved in compliance with NSTCC policies and procedures; and,
4. Train staff in the implementation of NSTCC procedures to ensure that all documentation to
   support cost sharing costs charged to future NSF awards is properly maintained in
   compliance with NSTCC policies and procedures.

The awardee responded to the draft audit report on February 28, 2007. In its response, the
awardee stated that it concurred with the findings that it lacked adequate supporting
documentation for salary and fringe benefit costs for the period October 1, 1998 to March 31,
2004 and that it lacked adequate supporting documentation for salary and fringe benefits for cost
sharing. The awardee also concurred that it did not always maintain attendance/sign in sheets
and that it misclassified xxxxxx participant support costs. The awardee indicated that it has
implemented several actions to improve its policies and procedures for reviewing and
documenting salary related costs and participant support costs. The awardee disagreed with the
findings that it lacked appropriate policies and procedures and documentation for claimed
consultant, travel, supplies, and indirect costs. The awardee also disagreed with the finding that
it did not have adequate documentation for cost share.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented. NSTCC’s response has been included in its entirety in Appendix A.

For a complete discussion of the audit findings, refer to the Independent Auditors’ Report on
Compliance with Laws and Regulations and Internal Control Over Financial Reporting.

EXIT CONFERENCE

We conducted an on-site exit conference on April 1, 2005, at NSTCC. We discussed findings
and recommendations as well as other observations contained in this report with those attending:

Representing NSTCC were:

               Name                          Title
               xxxxxxxxxxxxx                 xxxxxxxxxxxxxxxxxxx
               xxxxxxxxxxxxx                 xxxxxxxxxxxxxxxxxxxx
               xxxxxxxxxxxxx                 xxxxxxxxxxxxxxxxxxxx




                                                5
Representing Foxx & Company were:

              Name                         Title
              xxxxxxxxxxxxxxx              xxxxxxxxxxxxxxxxx
              xxxxxxxxxxxxxxx              xxxxxxxxxxxxxx


The preliminary results of the audit were discussed. We also conducted a telephone exit
conference on July 12, 2005, with representatives from NSTCC’s office in Nashville, Tennessee.
We provided a detailed summary of findings to NSTCC on July 12, 2005 via email. Based on
the information in our email, NSTCC provided additional information to us on July 21, 2005,
which we considered in the results of our audit. A draft report was sent to the awardee for
comments on February 14, 2007. The awardee responded with comments on March 1, 2007.
The awardee’s comments are contained as Exhibit A of this report and after each finding in
summary form.




                                              6
AUDIT FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


         INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES


We have audited the costs claimed by the Nashville State Technical Community College
(NSTCC) to the National Science Foundation (NSF) on the Federal Cash Transactions Reports
(FCTR) for the NSF awards listed below. In addition, we audited the amount of cost sharing
claimed on each award. The FCTRs, as presented in the Schedules of Award Costs (Schedules
A-1 through A-3), are the responsibility of NSTCC’s management. Our responsibility is to
express an opinion on the Schedules of Award Costs (Schedules A-1 through A-3) based on our
audit.

             Award Number              Award Period                Audit Period
            DUE-9850307             10/01/98 to 09/30/02        10/01/98 to 09/30/02
            DUE-0202249             09/15/02 to 08/31/05        09/15/02 to 03/31/04
            DUE-0202397             09/15/02 to 08/31/05        09/15/02 to 03/31/04



We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards (2003 revision), issued by the Comptroller
General of the United States; and the National Science Foundation Audit Guide (September
1996), as applicable. These standards and the National Science Foundation Audit Guide require
that we plan and perform the audit to obtain reasonable assurance that the amounts claimed to the
NSF as presented in the Schedules of Award Costs (Schedules A-1 through A-3) are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the Schedules of Award Costs (Schedules A-1 through A-3). An
audit also includes assessing the accounting principles used and significant estimates made by
NSTCC’s management, as well as evaluating the overall financial schedule presentation. We
believe that our audit provides a reasonable basis for our opinion.
The Schedules of Questioned Costs (Schedules B-1 through B-3) explain the $185,213 (6.9%) of
total claimed NSF funded costs that we have questioned for allowability. These questioned costs
include unauthorized salaries and wages, unallowable indirect costs, and unsupported travel
costs, participant support costs, consultant costs, and other direct costs. Schedule B-2 explains
the $115,538 (43 percent) of total claimed cost sharing that we have determined “at risk” under
the award agreement. “At risk” cost sharing is the amount of required cost sharing that has not
been met at the time of the audit, but which the awardee still has time to meet before the end of
the award period.

Questioned costs are (1) costs for which documentation exists to show that the recorded costs
were expended in violation of the laws, regulations or specific conditions of the award, (2) costs
requiring additional support by the awardee, or (3) costs that require interpretation of
allowability by NSF’s Division of Institution and Award Support (DIAS). NSF will make the
final determination regarding whether such costs are allowable. The ultimate outcome of this
determination cannot presently be determined. Accordingly, no adjustment has been made to
costs claimed for any potential disallowance by NSF.

In our opinion, except for $185,213 of questioned NSF-funded costs and the $115,538 of “at
risk” cost sharing, the Schedules of Award Costs (Schedules A-1 through A-3) present fairly, in
all material respects, the costs claimed on the FCTRs for the period October 1, 1998, to March
31, 2004, in conformity with the National Science Foundation Audit Guide, NSF Grant Policy
Manual, terms and conditions of the NSF award requirements, and on the basis of accounting
described in the Notes to the Financial Schedules. These schedules are not intended to be a
complete presentation of financial position of NSTCC in conformity with accounting principles
generally accepted in the United States of America.

In accordance with Government Auditing Standards and provisions of the National Science
Foundation Audit Guide, we have also issued a report dated July 21, 2005, on our tests of
NSTCC’s compliance with certain provisions of laws, regulations, and NSF award terms and
conditions, and our consideration of NSTCC’s internal control over financial reporting. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

This report is intended solely for the information and use of the NSTCC management, NSF, the
cognizant Federal audit agency, the Office of Management and Budget, and the Congress of the
United States of America, and is not intended to be and should not be used by anyone other than
these specified parties.


Foxx & Company


______________________________
Cincinnati, Ohio
July 21, 2005
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                    INDEPENDENT AUDITORS’ REPORT ON
               COMPLIANCE WITH LAWS AND REGULATIONS AND
               INTERNAL CONTROL OVER FINANCIAL REPORTING


We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1
through A-3), which summarize the financial reports submitted by the Nashville State Technical
Community College (NSTCC) to the National Science Foundation (NSF) and claimed cost
sharing for the awards listed below and have issued our report thereon dated July 21, 2005.

              Award Number           Award Period              Audit Period
              DUE-9850307          10/01/98 to 09/30/02     10/01/98 to 09/30/02
              DUE-0202249          09/15/02 to 08/31/05     09/15/02 to 03/31/04
              DUE-0202397          09/15/02 to 08/31/05     09/15/02 to 03/31/04



We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through
A-3 in accordance with auditing standards generally accepted in the United States of America;
Government Auditing Standards (2003 revision), issued by the Comptroller General of the
United States; and the National Science Foundation Audit Guide (September 1996), as
applicable. These standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial schedules
are free of material misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable Federal laws, regulations, and NSF award terms and conditions is
the responsibility of NSTCC’s management. As part of obtaining reasonable assurance about
whether the financial schedules are free of material misstatement, we performed tests of
NSTCC’s compliance with certain provisions of applicable laws, regulations, and NSF award
terms and conditions, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. However, providing an opinion on overall
compliance with such provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests of compliance disclosed four instances of
noncompliance that are required to be reported under Government Auditing Standards and the
National Science Foundation Audit Guide and are described in Findings Nos. 1 through 4 below.

INTERNAL CONTROLS OVER FINANCIAL REPORTING

NSTCC management is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the
preparation of financial schedules in accordance with accounting principles prescribed by NSF.
Because of inherent limitations in any internal control, misstatements due to errors or
irregularities may nevertheless occur and not be detected. Also, projection of any evaluation of
internal control to future periods is subject to the risk that procedures may become inadequate
because of changes in conditions, or that the effectiveness of the design and operation of policies
and procedures may deteriorate.

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 through
A-3) for the period October 1, 1998, to March 31, 2004, we considered NSTCC’s internal
control over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedules and not to provide an opinion on internal
control. Accordingly, we do not express such an opinion.

We noted, however, certain matters described below involving internal control over financial
reporting and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect NSTCC’s ability to record, process, summarize and report financial data consistent with
management’s assertions in the financial schedules. Reportable conditions we found are
described in Finding Nos. 1 through 4 below.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control elements does not reduce, to a relatively low level, the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of
internal control over financial reporting would not necessarily disclose all matters related to
internal control over financial reporting that might be reportable conditions; and, accordingly,
would not necessarily disclose all reportable conditions that are also considered to be material
weaknesses.    We consider all of the reportable conditions described below to be material
weaknesses.

Finding No. 1: Lack of Adequate Supporting Documentation for Salary and Fringe Benefit
Costs for the Period October 1, 1998 to March 31, 2004


NSTCC did not obtain certifications and personnel activity reports as required by Federal
regulations and NSF grant terms to support xxxxxxxxxxx of salaries and wages and xxxxxxxxxx
xxxxxx of fringe benefits claimed for the period October 1, 1998 through March 31, 2004 for
NSF Award Nos. DUE-0202249 and DUE-0202397. This situation occurred even though
NSTCC had time and effort reporting policies and procedures for an earlier NSF award (DUE-
9850307). In addition, NSTCC charged xxxx to Award No. DUE-0202249 for labor costs for
an employee that was not authorized to work on the award. Because NSTCC did not follow the
requirements for certifications and personnel activity reports, it was necessary for us to perform
alternative audit procedures to assess the reasonableness and propriety of the claimed labor costs.

NSTCC’s policy requires each employee charging time to a federal project to complete monthly
personnel activity reports. Upon receipt of Award No. DUE-9850307, NSTCC implemented a
specific time and effort reporting template for its employees to use to record labor effort worked
on NSF awards. NSTCC also designated one administrative NSTCC employee to ensure that
employees working on the NSF award were completing the appropriate personnel activity
reports. Accordingly, NSTCC employees completed the required personnel activity reports for
NSF Award No. DUE-9850307. However, when NSTCC was awarded two additional NSF
awards, DUE-0202249 and DUE-0202397, the employees assigned to these new grants were
neither aware of nor trained on NSTCC’s personnel activity reporting system because the
NSTCC administrative employee responsible for ensuring employees completed these reports no
longer worked at the college. The principal investigators on the newer NSF awards also stated
that they were not aware of the personnel activity reporting requirements for their awards.

OMB Circular A-21, Subpart J, Section 10b 2(b), states that awardees must “recognize the
principle of after-the-fact confirmation or determination so that costs distributed represent actual
costs, unless a mutually satisfactory alternative agreement is reached. Direct cost activities…
may be confirmed by responsible persons with suitable means of verification that the work was
performed. Confirmation by the employee is not a requirement for… direct… cost activities…
where employees are expected to work solely on a single Federal award or cost objective,
charges for their salaries and wages will be supported by periodic certifications that the
employees worked solely on that program for the period covered by the certification. These
certifications will be prepared at least semi-annually and will be signed by the employee or
supervisory official having firsthand knowledge of the work performed by the employee.”

NSTCC employees working on NSF Award Nos. DUE-0202249 and DUE-0202397 were
required by the college to sign employment contracts. Each employment contract included a
description of the employee’s duty and the amount of time allocated for the employee to work on
the NSF awards NSTCC’s management stated that employees’ time and effort percentages were
detailed in the employees’ individual contracts with NSTCC. According to NSTCC
management, employees were bound by the terms of their contracts with NSTCC as to the
amount of effort the employee was required to provide on a specific NSF award. NSTCC
management also indicated that the department head or the principal investigator on an NSF
project confirmed the amount of effort an employee worked on an award during their approval
process for each payroll. Thus, NSTCC officials believed the employment contracts, coupled
with the payroll approval process, would meet NSF grant requirements.

To satisfy our concerns, we performed additional testing to determine whether labor costs
charged to NSF Award Nos. DUE-0202249 and DUE-0202397 were allowable under Federal
and NSF award requirements. We reviewed the employment contracts of all 30 employees
charged to these awards for the period October 1, 1998 through March 31, 2004 to verify that job
titles, responsibilities, and time effort allocation complied with the NSF approved budget. We
also reviewed payroll records to verify that the NSTCC payroll approval process was utilized for
these employees.

Additionally, after we completed fieldwork, NSTCC provided us with certifications signed by
the principal investigators for all personnel costs charged to Award Nos. DUE-0202249 and
DUE-0202397. These certifications stated that all employee costs charged directly to these
grants were valid charges and that the employees charged to these NSF awards did work on the
respective awards at the percentages of time and effort listed in their contracts with NSTCC.
Based on our alternative procedures and the certifications received from the principal
investigators, we did not question these costs. Nevertheless, the lack of a labor effort reporting
and certification process seriously undermined the accuracy and reliability of the labor costs
NSTCC claimed on its NSF awards.

Finally, the xxxx of questioned salaries and wages represents labor and overtime costs charged to
Award No. DUE-0202249 for which NSTCC could not provide written authorization. The total
amount consisted of xxxx for labor costs for an employee who was a part-time administrative
assistant who was not authorized to work on the NSF award. The remaining xxxx questioned
resulted from this same employee charging overtime to the award. Because there was no
authorization for this person to work on the award, the xxxx of direct labor and overtime charged
to the grant has been questioned.

Recommendation No. 1:

We recommend that for current and future awards the NSF Directors for the Division of
Institution and Award Support (DIAS) and the Division of Grants and Agreements (DGA) direct
NSTCC to develop and implement procedures to verify that all employees working on NSF
awards are following NSTCC policies and procedures for completion of certifications and
personnel activity reports.

NSTCC Comments:

NSCC’s management concurs with finding and will immediately begin new procedures.
Suggested procedure includes:
   1) The principal investigator will make individual files for each of its employees. These
      files will contain copies of employment contracts, signed time/activity reports, and
      related employment documents.
   2) The principal investigator will be responsible for collecting the above listed information
      for files.
   3) The principal investigator will be responsible for reconciling time/activity reports to
      contract dates on a monthly basis.
   4) The principal investigator will notify Grants Accounting Office personnel of any
      corrections necessary.

Auditor’s Response:

Nashville’s corrective actions appear to be responsive to the recommendation. However this
report finding should not be closed until NSF determines that the corrective actions have been
satisfactorily implemented.

Finding No. 2: Lack of Appropriate Policies and Procedures Over Claimed Indirect Costs

NSTCC overcharged NSF Award No. DUE-9850307 in the amount of $148,020 for indirect
costs. This occurred because NSTCC charged the budgeted amount of indirect costs instead of
applying the NSF approved indirect cost rate of xxx percent of salaries and wages, excluding
fringe benefits, to the actual salary and wage costs incurred for the grant.

According to award terms, NSTCC should have claimed indirect costs of xxxx xxxx. Instead, it
claimed xxxxxxxx (see Schedule B-1), because it applied the indirect cost rate of xx percent to
budgeted salaries and wages rather than to actual salaries and wages incurred for the grant.
NSTCC could not explain why this happened.

Recommendation No. 2:

We recommend that the NSF Directors of DIAS and DGA direct NSTCC to develop and
implement written policies and procedures to ensure that indirect costs claimed are in accordance
with the terms of the NSF award agreements.

NSTCC Comments:

While NSCC’s management understands the finding, we do not concur with the finding. Grants
Office personnel were directed during that time by the current PI for the grant on the indirect
cost process with consortium schools. The PI’s understanding of the indirect cost claimed was
relayed to her through conversations with NSF personnel. The reason the indirect costs were the
exact amount of the budget for one year was because the actual indirect calculation was slightly
more indirect cost than was budgeted. To avoid going over budget in the indirect cost category,
Grants Office personnel did not claim the overage.
Auditor’s Response:

Our audit identified the indirect costs that should have been charged to the NSF grant in
compliance with the award terms and conditions. Because the awardee did not provide any
documentation to support its claim that indirect cost were accurately charged to the NSF award,
the $148,020 will remain questioned. We recommend that NSF clarify and explain its award
terms and conditions to NSTCC and recover the questioned indirect costs.

Finding No. 3: Lack of Adequate Supporting Documentation for Non-Personnel Costs

NSTCC did not always maintain adequate documentation for the non-personnel costs it charged
to its NSF awards. Thus, documentation such as purchase orders, invoices, contracts, and sign-in
sheets were not available to support charges NSTCC claimed on its NSF grants. As a result,
NSTCC could not provide adequate support for $36,901 of participant support, consultant costs,
travel costs and other direct costs it charged to its NSF awards.

OMB Circular A-110, Subpart C, Paragraph .21(7) states that to be allowable under an award,
costs must “be adequately documented by accounting records including cost accounting records
supported by source documentation.” NSF Grant General Conditions (GC-1) 23.a.1 also states
that “financial records, supporting documents, statistical records, and other records pertinent to
this award shall be retained by the awardee for a period of three years from submission of the
final reports specified in Article 16. Records that relate to audits, litigation or the settlement of
claims arising out of the performance of the project shall be retained until such audits, appeals,
litigation or claims have been disposed of.”

According to NSF Grants Policy Manual (GPM) Section 301, NSTCC is responsible for prudent
management of all expenditures and actions affecting the grant. GPM Section 301 also states
that documentation for each expenditure or action affecting an award must reflect appropriate
organizational reviews or approvals, which should be made in advance of the action.

Participant Support Costs

For NSF Award Nos. DUE-0202249 and DUE-0202397, we questioned a total of $9,903 of
participant support costs. Specifically, for award number DUE-0202249, we questioned $5,483
of unsupported participant support costs because NSTCC misclassified contractor costs incurred
for this award as “participant support.” NSTCC could not explain how these costs were in fact
participant support costs. We also questioned eight stipends totaling $4,020 because NSTCC
could not provide sign-in sheets that verified that the participants attended the grant workshop.
Also, $400 of participant support costs were questioned for NSF Award No. DUE-0202397 for
lack of sign-in sheets. NSTCC was also unable to provide alternative documentation to support
these transactions.

Consultant Costs

We questioned a total of $18,688 of consultant costs on Award Nos DUE-9850307 and DUE-
0202249. For Award No. DUE-9850307, $17,688 of consultant costs were questioned because
NSTCC could not provide adequate documentation to support these costs. The $17,688 consisted
of xxxxxxxx for unsupported wages and salaries, travel expenses and indirect costs billed to
NSTCC by Jackson State University but for which NSTCC could not provide a signed contract
or other documentation for how these costs related to the NSF award. The remaining xxxxx was
for contractor expenses for which NSTCC was unable to provide either a contract agreement or
other form of documentation. For Award No. DUE-0202249 we questioned xxxxxxof consultant
costs because there was no approved contract between NSTCC and the vendor for these costs.

Travel Costs

We questioned a total of $6,610 of travel costs. This amount included $2,291 of travel costs for
NSF Award No. DUE-9850307 for which NSTCC could not provide adequate documentation
and $4,319 questioned costs for Award No. DUE-0202249 due to a lack of documentation and
the absence of approved expense reports for the travel.

Other Costs

For Award No. DUE-9850307, we questioned $1,558 of other costs because these costs were not
supported by properly approved or completed purchase orders. For $1,058 of this amount, we
could not determine if the purchases had been properly approved as required by NSTCC’s
policies and procedures. These questioned costs included purchases for office supplies, an
honorarium, and a meeting for case study module development. The remaining $500 of
questioned costs was for an honorarium for which NSTCC could not provide any documentation.

We also questioned $142 of costs charged to Award No. DUE-0202397. These questioned costs
consisted of two purchases for office supplies which were not supported by properly approved
and completed purchase orders.

As a result of the above, we concluded that NSTCC did not always follow existing procedures
related to the approval of costs and/or the retention of records for the costs it charged to its NSF
awards. NSTCC management did not explain why this occurred. As a result, we questioned a
total of $36,901 for all three awards.

Recommendation No. 3:

We recommend that NSF’s Division Directors of DIAS and DGA require NSTCC to train staff
in the implementation of NSTCC procedures to ensure all documentation to support costs
charged to current and future NSF awards is properly maintained and reviewed and approved in
compliance with NSTCC policies and procedures.

NSTCC Comments:

NSCC’s management concurs with the portion of the finding regarding attendance/sign-in sheets.
Procedures were put into effect during calendar year 2004 to require these attendance sheets for
payments to vendors. The attendance sheet requirement and procedure are currently in effect.
NSCC’s management concurs with the portion of the finding regarding misclassification of
$5,483. The principal investigator will work with the Grants Accounting office to insure that all
participant support costs are classified correctly.

NSCC’s management does not concur with the portion of the finding regarding travel. Travel
samples with “no travel approval” did not require NSCC travel approval forms. Travel approval
forms are required only for college employees who do not have blanket travel approval authority.
NSCC policy does not require travel approval forms for travel by individuals who are not direct
employees of the college. Individuals paid as professional services are not required to complete
a travel approval form.

NSCC’s management does not concur with the portion of the finding regarding supply charges.
Supply charges in question were purchased according to TBR/NSCC policy. Normally a
purchase order is required, but a statewide contract existed between TBR schools and the vendor.
No purchase orders are required for supplies through this approved vendor because of the
statewide contract and purchasing pre-approval procedures that were in place.

NSCC’s management does not concur with the portion of the finding regarding the nine non-
personnel items. Nine non-personnel items listed in this audit report were not listed on the
certification sheets that were sent to NSCC management for project personnel signatures. The
majority of questioned consultant costs consisted on one vendor that was labeled as “good” on
documentation on a fieldwork sample sheet from the auditor. Seven of the items were requested
in the first few visits by originating auditor who later left employment with Foxx & Co. Two
new auditors were assigned to complete the audit and it is our concern that these documents were
not relayed between auditors.

Auditor’s Response:

The awardee concurred with the questioned participant support costs and the need for sign in
sheets. Accordingly, the $5,483 should be recovered from the awardee. With regard to the
questioned travel, consultant, and other costs, the awardee did not provide adequate
documentation supporting that these costs were allowable charges to the NSF awards. NSTCC
also had several opportunities to provide us with requested documentation. All documentation
received from NSTCC by the originating auditor was passed along to the new auditors assigned
to complete the audit. Because documentation supporting the questioned costs was either not
adequate, not available, or not provided, the costs will remain questioned. This report finding
should not be closed until NSF determines that corrective actions have been satisfactorily
implemented by NSTCC.

Finding No. 4: Lack of Adequate Supporting Documentation for Cost Sharing

NSTCC lacked adequate supporting documentation for the cost sharing it claimed for Award No.
DUE-0202249. We found that NSTCC did not maintain employee certifications and personnel
activity reports to support the salary and fringe benefit costs. Also, it could not provide support
for the facilities and equipment costs it claimed as cost sharing. As a result, NSTCC could not
provide adequate support for $85,446 (35%) of the $241,528 of the amount of cost sharing it
claimed for Award No. DUE-0202249.

NSF’s Grant Policy Manual (GPM), Section 333, NSF Cost Sharing, requires a grantee to
maintain records of all costs claimed as cost sharing and those records are subject to audit. Also,
OMB Circular A-110, Section 23, Cost Sharing, states that cost sharing expenses must be
verifiable from the recipient’s records and be necessary and reasonable for the efficient
accomplishment of project or program objectives and allowable under the applicable cost
principles.

As discussed in Finding No. 1, above, NSTCC did not always follow its policies and procedures
which required NSTCC employees working on NSF grants to complete employee certifications
and personnel activity reports to support salary and fringe benefit costs charged to NSF awards.
This condition also existed for salary and fringe benefit costs claimed as cost sharing on NSF
Award No. DUE-0202249. Additionally, NSTCC could not provide adequate documentation for
“release time” claimed as cost sharing. “Release time” was time incurred by regular instructors
for creation, review, and other participation in developing an effective learning environment
through the use of case studies for the NSF project. Thus, $24,876 of labor related costs claimed
as cost sharing were not supported by adequate documentation.

Moreover, as discussed in Finding No. 3, above, NSTCC did not always maintain adequate
documentation to support the non-personnel costs it charged to its NSF grants. Thus, $60,570 of
non-personnel costs NSTCC claimed as cost share for facilities and equipment were
unsupported. This situation existed because NSTCC personnel did not follow its existing
policies and procedures for record retention for costs it charged to its NSF awards.

We did not question the $85,446 of inadequately supported cost share because the award period
for NSF Award No. DUE-0202249 had not ended at the time of our audit. Thus, we have
determined that the lack of adequate documentation for cost share results in “at risk” cost
sharing. “At risk” cost sharing is the amount of required cost sharing that has not been met at the
time of the audit, but which the awardee still has time to meet before the end of the award period.

We calculated at-risk cost sharing as follows:

              Required Cost Sharing                                        $271,700
              Cost Sharing Claimed                         $241,528
              Cost Sharing Unacceptable                     (85,446)
              Cost Sharing available for award                              156,062

              Cost Sharing “at risk”                                       $115,638

Based on our calculation of cost sharing “at risk”, NSTCC is still required to provide $115,638
of cost sharing for NSF Award No. DUE-0202249 before the award period is completed.
Recommendation No. 4:

We recommend that NSF’s Division Directors of DIAS and DGA require NSTCC to train staff
in the implementation of NSTCC procedures to ensure all documentation to support cost sharing
costs charged to current and future NSF awards is properly maintained in compliance with
NSTCC policies and procedures.

NSTCC Comments:

NSCC’s management concurs on the need for more accurate time record keeping for grant
funded project employees. Our response in Finding No. 1 regarding procedure will also apply to
cost sharing records as well.

NSCC’s management does not concur with the in-kind donation portion of the finding. The
project has in-kind donations totaling well over the required cost sharing figure of the $271,700
shown in this report for NSF Award No. DUE-0202249.

Auditor’s Response:

Because the awardee did not provide documentation supporting additional eligible cost sharing
or evidence that the questioned $85,446 was acceptable, the $115,638 remains as “at risk” cost
sharing. NSTCC should ensure that proper documentation to support cost sharing is maintained,
regardless of the type of cost. This report finding should not be closed until NSF determines that
corrective action has been satisfactorily implemented.

We considered these instances of non compliance and internal control weaknesses in forming our
opinion of whether the Schedules of Award Costs (Schedules A-1 through A-3) present fairly in
all material respects, the costs claimed by NSTCC on the Federal Cash Transactions Reports and
Cost Sharing claimed, for the period October 1, 1998 through March 31, 2004, in conformity
with the National Science Foundation Audit Guide (September 1996), NSF Grant Policy
Manual, Federal Laws and Regulations, and NSF award terms and conditions, and determined
that this report does not affect our report dated July 21, 2005 on the Schedules of Award Costs.

This report is intended solely for the information and use of the NSTCC’s management, NSF, the
cognizant Federal audit agency, the Office of Management and Budget, and the Congress of the
United States, and is not intended to be and should not be used by anyone other than these
specified parties.



Foxx & Company
July 21, 2005
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                           SCHEDULE A-1


                 NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                              NASHVILLE, TENNESSEE

              NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-9850307
                          SCHEDULE OF AWARD COSTS
                     OCTOBER 1, 1998, TO SEPTEMBER 30, 2002
                                     FINAL

                                                                                                     Schedule B
                                             Approved          Claimed              Questioned          Note
               Cost Category                  Budget           Costs (A)              Costs          Reference
    Direct costs:
       Salaries and wages                    Xxxxxxxx         X xxxxxxx         $             -
       Fringe benefits                         xxxxxx          Xxxxxxxx                       -
       Equipment                               Xxxxxx            xxxxxx                       -
       Travel                                  Xxxxxx            Xxxxxx                   2,291      Note B-1a
       Consultant                              Xxxxxx            Xxxxxx                  17,688      Note B-1b
       Materials and supplies                Xxxxxx              Xxxxxx                       -
       Other                                   Xxxxxx            Xxxxxx                   1,558      Note B-1c
          Total direct costs                   Xxxxxx            Xxxxxx                  21,537

    Indirect costs (B)                          Xxxxxx            Xxxxxx                148,020      Note B-1d

          Total direct and indirect costs       Xxxxxx            Xxxxxx        $       169,557

    Cost sharing (C)                            $ 252,000        $ 304,324                       -



(A) The total costs claimed agree with the total expenditures reported on the FCTR as of September 30, 2002. The
    claimed costs reported above are taken directly from the awardee’s books of accounts.

(B) The indirect cost allowance is at a predetermined fixed rate of xxpercent, to be applied to a direct salaries and
    wages excluding the fringe benefits cost base.

(C) NSTCC claimed $304,324 in cost sharing. We determined that $288,481 was allowable and that the resulting
    $15,837 of claimed cost share was potentially questioned. However, since the allowable amount was more
    than the required amount of cost share, we did not question any cost sharing for this award.




                                                        19
                                                                               SCHEDULE B-1


              NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                           NASHVILLE, TENNESSEE

           NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-9850307
                     SCHEDULE OF QUESTIONED COSTS
                  OCTOBER 1, 1998 to SEPTEMBER 30, 2002

Note B-1a Travel Cost

The $2,291 questioned represents travel costs for which the awardee did not have adequate
documentation supporting the costs. NSTCC could not provide adequate support which
documented that travel costs were properly approved (i.e., Authorized Travel Approval/Travel
claim form). These costs included travel to a SEATEC advisory meeting ($803), and travel to
SEATEC NSTI workshops, National Advisory Committee meetings, and developmental
conference for principle investigators, ($1,488). Without supporting documentation and
authorized approvals, the $2,291 has been questioned in accordance with OMB Circular A-110,
Subpart C, Paragraph .21.

Note B-1b Consultant Costs

The $17,688 questioned represents claimed cost for consultant services and related expenses,
which were not properly supported by adequate documentation. We found that NSTCC could
not provide a contract or any other identification for xxxxx in claimed consultant cost charged to
the award. In addition, the remaining xxxxxx questioned costs consisted of unsupported wages
and salaries, travel expenses and indirect cost billed to NSTCC by Jackson State University. In
addition, NSTCC could not provide a signed contract for the Jackson State University costs.
Because NSTCC did not have any support for these costs the $17,688 has been questioned in
accordance with OMB Circular A-110, Subpart C, Paragraph .21.

Note B-1c Other Direct Cost

The $1,558 questioned consists of purchases charged to this award which were not supported by
properly approved or completed purchase orders. As a result, we could not determine if the
purchases had been approved, nor could we compare the approved amount from the purchase
order to the actual payment for the voucher package payment ($1,058). The questioned costs
which were not properly approved included purchases for office supplies, an honorarium, and a
meeting for case study module development. In addition, the remaining $500 questioned was for
an honorarium for which NSTCC could not provide any support such as an approved purchase
order for the other direct cost charged to the award. These costs have been questioned in
accordance with OMB Circular A-110, Subpart C, Paragraph .21.




                                               20
Note B-1d Indirect Cost

The $148,020 questioned consists of overcharges for indirect cost based on NSTCC claiming the
budgeted amount of indirect costs instead of applying the approved indirect cost rate of 37
percent of salaries and wages excluding fringe benefits to the actual salaries and wages incurred
for the grant. Based on the actual salaries and wages, NSTCC had a maximum allowability of
indirect cost charges of xxxxxx xxxxxx xxxx xxxxxx. Based on our review of indirect costs
claimed, NSTCC charged xxxxxx xxxxxx xxxxxx xxxxx x to this award which represented the
budgeted amount for the award. The xxxxxx xxxxxx xxxxxx xxxxxx is questioned in accordance
with OMB Circular A-21, Paragraph C3, a cost must be reasonable and Paragraph C4, a cost
must be allocable.




                                               21
                                                                                           SCHEDULE A-2


                     NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                                  NASHVILLE, TENNESSEE

                NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-0202249
                            SCHEDULE OF AWARD COSTS
                       SEPTEMBER 15, 2002 TO MARCH 31, 2004


                                                                                                        Schedule B
                 Cost                       Approved        Claimed          Questioned       At           Note
               Category                      Budget         Costs (A)          Costs         Risk       Reference
Direct costs:
   Salaries and wages                   xxxxxx          xxxxxx           $           292            -   Note B-2a
   Fringe benefits                      xxxxxx          xxxxxx                         -            -
   Travel                               xxxxxx          xxxxxx                     4,319            -   Note B-2b
   Participant support costs            xxxxxx          xxxxxx                     9,503            -   Note B-2c
   Materials and supplies               xxxxxx          xxxxxx
   Consultant costs                     xxxxxx          xxxxxx                     1,000            -   Note B-2d
   Sub awards                           xxxxxx          xxxxxx                                      -
   Other (Publication)                  xxxxxx          xxxxxx                                      -
      Total direct costs                xxxxxx          xxxxxx                    15,114            -
                                        xxxxxx          xxxxxx
Indirect costs (B)                      xxxxxx          xxxxxx                                      -
                                        xxxxxx          xxxxxx
      Total direct and indirect costs   xxxxxx          xxxxxx           $       15,114     $       -

Cost sharing                            $     271,700   $        241,528 $            -     $115,638    Note B-2e



 (A) The total costs claimed agree with the total expenditures reported on the FCTR as of March 31, 2004.
     Claimed costs reported above are taken directly from the awardee’s books of accounts.

 (B) The indirect cost allowance is at a predetermined fixed rate of xx percent, to be applied to direct
     salaries and wages plus fringe benefits.




                                                            22
                                                                               SCHEDULE B-2


              NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                           NASHVILLE, TENNESSEE

           NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-0202249
                     SCHEDULE OF QUESIONED COSTS
                  SEPTEMBER 15, 2002 TO MARCH 31, 2004


Note B-2a Salaries and Wages

The xxxx questioned represents time charged to the award which was not approved. NSTCC
could not provide written authorization for an employee to charge time to the award in the
amount of xxxx. Our review of the employee personnel file showed that the employee was an 84
percent part-time Administrative Assistant for the Business Technology Department. Therefore,
some form of authorization to charge time to the award should have been available. The
remaining xxxx questioned resulted from NSTCC not providing written authorization for the
same employee to work overtime. Because there was no authorization for this person to work on
the award, the xxxx of direct time and overtime charged to the grant has been questioned.

Note B-2b Travel Cost

The $4,319 questioned represents unapproved and unsupported travel costs. NSTCC could not
provide adequate support which documented that travel cost were properly approved for travel
cost claimed in the amount of $4,319. The $4,319 included travel to the S3 Conference,
Professional Development/Cisco Training, the East Tennessee Technological Council
Conference xx xx, and travel to the SEATEC Developmental Conference in Raleigh, North
Carolina xxx x. There was no support for the claim or an approved expense report for any of
the trips. Accordingly, the $4,319 is questioned in accordance with OMB Circular A-110,
Subpart C, Paragraph .21.

Note B-2c Participant Support

The $9,503 questioned represents participant support cost transactions, which NSTCC could not
adequately support. Participant support costs included the cost of contracts for services rendered
in the amount of $5,483, and eight stipends totaling xx xx for NCTCC workshops. NSTCC
could not support how the contract costs benefited the participant support. Also, the stipends
were questioned because no sign-in sheets were provided to verify that participants actually
attended the event. NSTCC was not able to provide any additional documentation to support
these transactions. Accordingly, the $9,503 is questioned in accordance with OMB Circular A-
110, Subpart C, Paragraph .21.




                                               23
Note B-2d Consultant Costs

The $1,000 questioned represents claimed costs for consultant services and related expenses. The
$1,000 was not properly supported by an approved contract. xxxx xxxx xxxx xxxx xxxx xxxx
xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx xxxx
xxxx xxxx xxxx. Because there was no documentation to support this charge, the $1,000 is
questioned in accordance with OMB Circular A-110, Subpart C, Paragraph .21.

Note B-2e Cost Sharing

The $115,638 of cost sharing “at risk” represents the cost sharing necessary to comply with the
award budget. “At risk” cost sharing is the amount of required cost sharing that has not been met
at the time of the audit, but which the awardee still has time to meet before the end of the award
period. NSTCC claimed $241,528 in cost sharing for this award. Our audit initially found that
$85,446 of charges made to cost sharing from consortium partners of the CITE grant were not
adequately supported and were, therefore unacceptable as cost sharing. We found that NSTCC
did not provide adequate support such as timesheets, diaries, calendars, memos, or other
supporting documentation that adequately described the services for the cost sharing charged to
the award. Cost sharing claims for facilities, equipment, and labor for such facilities went totally
unsupported, with no documentation to support the actual calculation of such charges. Based on
a calculation of the required cost sharing for this award ($271,700) less the amount of cost
sharing that we determined was acceptable ($156,082, or $241,528 claimed less $85,446
unacceptable), we calculated $115,638 that is considered “at risk” because the award was not
completed at the time of our review. The “at risk” cost sharing still has to be provided in order
for NSTCC to be in compliance with the award cost sharing requirement.




                                                24
                                                                                            SCHEDULE A-3


                  NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                               NASHVILLE, TENNESSEE

             NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-0202397
                         SCHEDULE OF AWARD COSTS
                    SEPTEMBER 15, 2002 TO MARCH 31, 2004
                                 INTERIM

                                                                                                      Schedule B
                    Cost                       Approved            Claimed           Questioned          Note
                  Category                      Budget             Costs (A)           Costs          Reference
   Direct costs:
      Salaries and wages                       $   xxxx xxxx                     $             -
      Fringe benefits                      xxxx         xxxx                                   -
      Travel                               xxxx         xxxx                                   -
      Participant support costs            xxxx         xxxx                                 400      Note B-3a
      Materials and supplies               xxxx         xxxx                                   -
      Consultant costs                     xxxx         xxxx                                   -
      Other (Publication)                  xxxx         xxxx                                 142      Note B-3b
         Total direct costs                xxxx         xxxx                                 542
                                           xxxx         xxxx
   Indirect costs (B)                      xxxx         xxxx                                      -
                                           xxxx         xxxx
         Total direct and indirect costs   xxxx         xxxx                     $          542

   Cost sharing                            $       80,000      $        78,675   $                -



(A) The total costs claimed agree with the total expenditures reported on the FCTR as of March 31, 2004.
    Claimed costs reported above are taken directly from the awardee’s books of accounts.

(B) The indirect cost allowance is at a predetermined fixed rate of xxx percent, to be applied to direct
    salaries and wages plus fringe benefits.




                                                          25
                                                                              SCHEDULE B-3


             NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                          NASHVILLE, TENNESSEE

           NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-0202397
                     SCHEDULE OF QUESTIONED COSTS
                  SEPTEMBER 15, 2002 TO MARCH 31, 2004
                               INTERIM


Note B-3a Participant Support

The $400 questioned cost represents two participant support cost transactions which NSTCC
could not adequately support. We found that NSTCC could not provide sign-in sheets to verify
that the participants actually attended the event for stipends valued at $400. Accordingly, these
costs are questioned in accordance with OMB Circular A-110, Subpart C, and Paragraph. 21.

Note B-3b Other

The $142 questioned consists of two purchases charged to the award for office supplies which
were not supported by properly approved and completed purchase orders. As a result, we could
not perform a comparison of approved amounts from the purchase order to the existing voucher
payment forms. Because of a lack of support documentation for these items, the $142 has been
questioned in accordance with OMB Circular A-110, Subpart C, Paragraph .21.




                                               26
                                                                                 Schedule C-1


        NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                     NASHVILLE, TENNESSEE

               NATIONAL SCIENCE FOUNDATION AWARD NOS.
                 DUE-9850307, DUE-0202249, and DUE-0202397

  SUMMARY SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS
             OCTOBER 1, 1998 TO MARCH 31, 2004


Summary of Awards Audited

     Award Number                    Award Period                  Audit Period
      DUE-9850307                  10/01/98 – 09/30/02        10/01/1998 – 9/30/2002
      DUE-0202249                  09/15/02 – 08/31/05        09/15/2002 – 3/31/2004
      DUE-0202397                  09/15/02 – 08/31/05        09/15/2002 – 3/31/2004



     Award Number                   Type of Award               Award Description
      DUE-9850307                       Grant             South East Advanced
                                                          Technology Education Center
                                                          (SEATEC)
      DUE-0202249                        Grant            Center for Information
                                                          Technology Education (CITE)
      DUE-0202397                        Grant            Case Files

Summary of Questioned and Unsupported Costs by Award

   NSF Award                                                               Unsupported
      Number      Award Budget        Claimed Costs   Questioned Costs        Costs
DUE-9850307      $     1,629,004    $       1,607,080 $        169,557   $        21.537
DUE-0202249            1,898,803              667,643           15,114            14,822
DUE-0202397              949,988              390,988              542               542
Total            $     4,477,795    $       2,665,711         $185,213   $        36,901




                                             27
Summary of Questioned Cost by Explanation

                                                 Questioned         Internal
                   Condition                        Cost            Control
                                                  Amount           Weaknesses       Non-Compliance
   Unauthorized Salaries                          $      292          Yes                Yes
   Unsupported Participant Support                     9,903          Yes                Yes
   Inadequate Approval/Support for travel
   Charged to Grants                                     6,610         Yes                 Yes
   Inadequate Support for Consultant Cost               18,688         Yes                 Yes
   Unsupported/inadequate support for
   Other Direct Cost                                    1,700          Yes                 Yes
   Over Charged for Indirect Cost                     148,020          Yes                 Yes
   Inadequate Support for Cost Sharing                      *          Yes                 Yes
   Total Questioned Costs                            $185,213

  *Although we questioned $85,466 of cost sharing claimed on Award No. DUE-0202249, we have shown
  the cost sharing as “at risk” ($115,638) because the award performance period was not ended at the time
  of the audit. The $115,638 of cost sharing is comprised of the $85,466 of unsupported cost share and
  $30,172 of cost share NSTCC has not yet claimed. See Note B-2e to Schedule A-2.

Summary of Internal Control Weaknesses and Non-Compliance Issues

                                                                                           Material,
                                                               Internal Control or        Reportable
                        Condition                                Non-Compliance            or Other
   Lack of Adequate Supporting Documentation for              Internal Control and
   Salary and Fringe Benefit Costs                            Non-compliance                Material
   Lack of Appropriate Policies and Procedures over           Internal Control and          Material
   Indirect Costs                                             Non-compliance
   Lack of Adequate Supporting Documentation for              Internal Control and          Material
   Non-Personnel Costs                                        Non-compliance
   Lack of Adequate Supporting Documentation for              Internal Control and          Material
   Cost Share                                                 Non-compliance




                                                     28
             NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                     NOTES TO FINANCIAL SCHEDULES
                     OCTOBER 1, 1998 TO MARCH 31, 2004

Note 1: Summary of Significant Accounting Policies

        Accounting Basis

        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions. Schedules A-1 through A-3 have been
        prepared from the reports submitted to NSF and information obtained from the
        accounting records maintained for the grant award by NSTCC. The basis of accounting
        utilized in preparation of these reports differs from generally accepted accounting
        principles. The following information summarizes these differences:

        A.   Equity

             Under the terms of the award, all funds not expended according to the award
             agreement and budget at the end of the award period are to be returned to NSF.
             Therefore, the awardee does not maintain any equity in the award and any excess
             cash received from NSF over final expenditures is due back to NSF.

        B.   Equipment

             Equipment is charged to expense in the period during which it is purchased
             instead of being recognized as an asset and depreciated over its useful life. As a
             result, the expenses reflected in the statement of award costs include the cost of
             equipment purchased during the period rather than a provision for depreciation.

             Except for awards with nonstandard terms and conditions, title to equipment
             under NSF awards vests in the recipient, for use in the project or program for
             which it was acquired, as long as it is needed. The recipient may not encumber
             the property without approval of the federal awarding agency, but may use the
             equipment for its other federally sponsored activities, when it is no longer needed
             for the original project.

        C.   Inventory

             Minor materials and supplies are charged to expense during the period of
             purchase. As a result, no inventory is recognized for these items in the financial
             schedules.

        D.   Federal Income Tax

             NSTCC has no Federal income tax liability.



                                             29
             NASHVILLE STATE TECHNICAL COMMUNITY COLLEGE
                     NOTES TO FINANCIAL SCHEDULES
                     OCTOBER 1, 1998 TO MARCH 31, 2004

Note 2: NSF Cost Sharing and Matching

The following represents the cost share requirements and actual cost share as of March 31, 2004:

                                                                                      Actual         Actual
                                Cost       Actual Cost         Unsupported           Supported     Cost Share
                               Share         Share                 Cost                 Cost      Over/(Under)
                              Required      Claimed               Share                Share        Required

Award No. DUE-9850307     $      252,000   $     304,324   $         15,843      $      288,481   $         36,481

Award No. DUE-0202249            271,700         241,528             85,446             156,082           (115,638)

Award No. DUE-0202397             80,000          78,675                     -           78,675             (1,325)

Total                     $      603,700   $     624,527   $        101,289      $      523,238   $       (80,482)



Note 3: Indirect Cost Rates

   Award Number     Indirect Cost Rate                                  Base
   DUE-9850307     xxxx                    Xxx                                                        x
   DUE-0202249     xxxx                    Xxx                                                        x
   DUE-0202397     xxxx                    Xxx                                                        x




                                                   30
         APPENDIX A

AWARDEE’S COMMENTS TO REPORT
                                                              APPENDIX A
Summary of Awardee’s Response and Auditor’s Comments to Audit Results




                               31
                               NSCC AUDIT RESPONSES


Findinq No. 1: Lack of Adequate Supporting Documentation for Salary and Fringe
Benefit Costs for the Period October 1, 1998 to March 31, 2004.

NSCC's Response:

NSCC's management concurs with finding and will immediately begin new procedures.
Suggested procedure includes:

 1) The principal investigator will make individual files for each of its employees. These
 files will contain copies of employment contracts, signed timely activity reports, and
 related employment documents.
2) The principal investigator will be responsible for collecting the above listed
information for files.
3) The principal investigator will be responsible for reconciling timelactivity reports to
contract dates on a monthly basis.
4) The principal investigator will notify Grants Accounting Office personnel of any
corrections necessary.


Finding No. 2: Lack of Appropriate Policies and Procedures Over Claimed Indirect
Costs.

NSCC's Response:

While NSCC's management understands the finding, we do not concur with the finding.
Grants Office personnel were directed during that time by the current PI for the grant on
the indirect cost process with consortium schools. The Pl's understanding of the indirect
cost claimed was relayed to her .through conversations with NSF personnel. The
reason the indirect costs were the exact amount of the budget for one year was
because the actual indirect calculation was slightly more indirect cost than was
budgeted. To avoid going over budget in the indirect cost category, Grants Office
personnel did not claim the overage.




                                            32
Finding No. 3 Lack of Adequate Supportinq Documentation for Non-Personnel Costs.
NSCC's Response:

NSCC's management concurs with the portion of the finding regarding
attendance/sign-in sheets. Procedures were put into effect during calendar year
2004 to require these attendance sheets for payments to vendors. The attendance
sheet requirement and procedure are currently in effect.

NSCC's management concurs with the portion of the finding regarding
misclassification of $5,483. The principal investigator will work with the Grants
Accounting office to insure that all participant support costs are classified correctly.

NSCC's management does not concur with the portion of the finding regarding travel.
Travel samples with "no travel approval" did not require NSCC travel approval forms.
Travel approval forms are required only for college employees who do not have blanket
travel approval authority. NSCC policy does not require travel approval forms for travel
by individuals who are not direct employees of the college. Individuals paid as
professional services are not required to complete a travel approval form.
NSCC's management does not concur with the portion of the finding regarding
supply charges. Supply charges in question were purchased according to
TBRINSCC policy. Normally a purchase order is required, but a statewide contract
existed between TBR schools and the vendor. No purchase orders are required for
supplies through this approved vendor because of the statewide contract and
purchasing pre-approval procedures that were in place.

NSCC's management does not concur with the portion of the finding regarding the nine
non- personnel items. Nine non-personnel items listed in this audit report were not listed
on the certification sheets that were sent to NSCC management for project personnel
signatures. The majority of questioned consultant costs consisted of one vendor that
was labeled as "good" on documentation on a fieldwork sample sheet from the auditor.
Seven of the items were requested in the first few visits by originating auditor who later
left employment with Foxx & Co. Two new auditors were assigned to complete the audit
and it is our concern that these documents were not relayed between auditors. Finding
No. 4: Lack of Adequate Supportinq Documentation for Cost Sharing.


NSCC's response:
NSCC's management concurs on the need for more accurate time record keeping for
grant funded project employees. Our response in Finding No. 1 regarding procedure will
also apply to cost sharing records as well.

NSCC's management does not concur with the in-kind donation portion of the finding.
The project has in-kind donations totaling well over the required cost sharing figure of
the $271,700 shown in this report for NSF Award No. DUE-0202249.




                                             33
